        INTEGRITY THREATS TO
     HAZARDOUS LIQUID PIPELINES
Pipeline and Hazardous Materials Safety Administration

             Report Number AV-2006-071
           Date Issued: September 18, 2006
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Integrity Threats                                         Date:    September 18, 2006
           to Hazardous Liquid Pipelines
           Pipeline and Hazardous Materials Safety
           Administration
           Report Number AV-2006-071
  From:                                                                             Reply to
           David A. Dobbs                                                           Attn. of:   JA-10
           Acting Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Administrator, Pipeline and Hazardous Materials
            Safety Administration


           This report presents the results of our review of the Pipeline and Hazardous
           Materials Safety Administration (PHMSA) Office of Pipeline Safety’s (OPS)
           oversight of hazardous liquid pipeline operators’ processes for mitigating and
           repairing threats to pipeline integrity. The objectives of our audit were to assess:
           (1) actions taken by pipeline operators to remediate integrity threats and (2) OPS
           efforts to verify the adequacy of these corrective actions. In March and
           April 2006, we presented some of our preliminary audit findings at two
           congressional hearings on pipeline safety.1 Exhibit A contains details on the scope
           and methodology we used in conducting this review.

           Low-stress transmission pipelines (the type that failed on Alaska’s North Slope in
           March and August 2006) were not included in this audit because they are currently
           exempt from Federal pipeline safety regulations. PHMSA is working on safety
           regulations that would address these pipelines and issued a notice of proposed
           rulemaking on August 31, 2006.




           1
               CC-2006-023, “Pipeline Safety: Progress and Remaining Challenges,” March 16, 2006; and CC-2006-039, “Pipeline
               Safety: Progress and Remaining Challenges,” April 27, 2006. See OIG reports and testimony on our website:
               www.oig.dot.gov.
                                                                                                                      2


BACKGROUND
Approximately 170,000 miles of pipelines are used to transport crude oil, gasoline,
kerosene, diesel fuel, and other hazardous liquids throughout the United States
(see Figure 1). These pipelines, comprising 249 systems, are managed by
approximately 130 operators.

    Figure 1. Hazardous Liquid Pipelines in       In December 2000, OPS issued
               the United States                  the hazardous liquid Integrity
                                                  Management Program2 (IMP) rule
                                                  as a result of several major
                                                  pipeline accidents, congressional
                                                  mandates, and concerns over the
                                                  safety of the Nation’s pipelines.
                                                  Under the IMP rule, OPS requires
                                                  pipeline operators to develop
                                                  programs to assess, evaluate, and
                                                  mitigate (i.e., repair) the risks to
                                                  their pipelines in areas where a
 Source: OPS                                      leak or rupture could have
                                                  significant consequences. This
risk-based approach is the backbone of OPS’s pipeline safety program. Operator
IMPs must include such elements as identifying their pipelines in or potentially
affecting high-consequence areas (HCA),3 conducting baseline assessments,
identifying and repairing integrity threats, and measuring program effectiveness.

Operators conduct baseline assessments
                                                     Figure 2. A Smart Pig
of their pipelines primarily through in-line
inspections. In-line inspections employ
computerized devices (commonly referred
to as smart pigs) that run inside a pipeline
(see Figure 2 for a picture of a smart pig).
Smart pigs employ magnetic or ultrasound
technologies to identify and measure
dents, cracks, metal loss from corrosion,
and other deformations that may
eventually lead to leaks or ruptures.
When pigging is impractical, operators use hydrostatic testing or other technology
to identify integrity threats. Operators, in turn, use the resulting data to identify
2
    49 CFR § 195.452 (2001), “Pipeline Integrity Management in High Consequence Areas,” went into effect on
    March 31, 2001. Although initially pertaining to operators with 500 or more miles of hazardous liquid pipelines, the
    rule was expanded to include operators with less than 500 miles of pipeline starting February 15, 2002.
3
    HCAs include unusually sensitive areas (defined as drinking water or ecological resource areas), urbanized and other
    populated places, and commercially navigable waterways.
                                                                                                                    3


and categorize integrity threats by repair timeframe as established by the IMP rule:
immediate, 60-day, 180-day, or other (no specific time period). These threats are
included in operator annual reports to OPS, due each June. In addition to using
these reports, OPS oversees operator compliance with IMP requirements through a
series of integrity management inspections that started in 2002.


RESULTS IN BRIEF
According to OPS, tens of thousands of integrity threats have been identified and
repaired since implementing the IMP rule in 2001. IMP success is due in large
part to the efforts of hazardous liquid pipeline operators and OPS oversight. Our
review found that pipeline operators had repaired all 409 threats we examined,
with about 98 percent of the repairs completed within established timeframes.
Similarly, OPS and its state partners in overseeing operator compliance with the
IMP rule had conducted one or more integrity management inspections4 of
86 percent (215 of 249) of hazardous liquid pipeline systems as of January 2006.
Even more important, those inspected pipeline systems represent approximately
98 percent of all hazardous liquid pipeline miles in or potentially affecting HCAs.

While we acknowledge the progress being made in identifying, repairing, and
overseeing integrity threats, several challenges still remain. These include the
need to improve the accuracy of operator annual reports submitted to OPS and to
ensure the effective use of pipeline inspection technology or smart pigs. The
following summarizes our results.

9 Accuracy of Operator Annual Reports Needs Improvement. OPS’s risk-
  based approach to safety relies on accurate reporting from operators. Six of the
  seven hazardous liquid pipeline operators we visited, however, had errors in
  their annual reports to OPS on integrity threats, in some cases substantial
  errors. Reporting errors were due to a variety of factors, such as the
  submission of preliminary numbers, data outside the reporting period, or
  threats involving non-HCA pipeline segments. In particular, inaccurate reports
  hamper OPS’s ability to analyze threat data, identify important trends, and
  focus limited inspection resources on areas of greatest concern. OPS has taken
  steps to improve the accuracy of operator annual reports and to help operators
  better understand the reporting requirement. For example, as a result of our
  preliminary audit findings, OPS issued new reporting guidelines to pipeline
  operators in April 2006. Moreover, in May 2006, OPS updated its integrity
  management inspection manual to include a requirement to verify the accuracy

4
    During inspections of hazardous liquid pipeline operators, inspectors look at whether operators: (1) perform a
    thorough and effective review of pig results, (2) identify all integrity threats in a timely manner, (3) remediate
    integrity threats in a timely manner, and (4) use the appropriate repair or remediation methods.
                                                                                 4


   of operator threat data. OPS, however, still needs to ensure that Federal and
   state inspectors fully implement the new data verification requirement during
   future integrity management inspections.

9 Need To Ensure Smart Pig Results Are Properly Analyzed and
  Interpreted. With much of the Nation’s pipeline system underground, smart
  pigs have proven extremely valuable in helping identify tens of thousands of
  defects before leaks occur. For all the benefits provided by this technology and
  the industry’s extensive use of smart pigs for inspecting pipelines, such devices
  should not be considered a “silver bullet” for identifying all integrity threats.
  Our review, for example, found several cases where integrity threats were not
  correctly identified based on pig inspection data. In one instance, pig data
  indicated two immediate threats, whereas the operator—after digging up and
  examining the pipeline—identified 30 threats requiring immediate attention.
  As a result of limitations in pig technology and incorrect analysis of pig data,
  some integrity threats can go undetected and pipeline accidents have occurred
  on pipelines that have been pigged. While OPS, the pipeline industry, and the
  seven operators we visited have taken a number of corrective actions,
  continued vigilance will be needed to ensure that operators use the right
  inspection tool and accurately analyze and interpret pig test results.

In light of these challenges, we recommend that OPS ensure inspectors implement
new guidance on verifying operator integrity threat data. We also recommend that
OPS identify what actions will be taken over the next year to oversee operators’
pig testing and analysis activities and to facilitate the adoption of industry
standards and the funding of research and development.


Summary of Management Comments and Office of Inspector General
Response
On June 29, 2006, we sent PHMSA a draft of our report. On August 11, 2006,
PHMSA provided us with its formal response, which is contained in its entirety in
the Appendix.

In its response, PHMSA agreed with both recommendations and believes it has
already met the intent of these recommendations. For the first recommendation,
PHMSA pointed to its recent revision of annual report guidelines and an update to
its inspection protocol. For the second recommendation, PHMSA cited prior year
efforts to improve Agency oversight of operator pig testing and analysis and to
facilitate both the adoption of industry standards and the funding for research and
development activities. However, as PHMSA’s response notes, the revised
inspection protocol has yet to be implemented. PHMSA also did not indicate what
                                                                                                       5


actions it would take over the next year to further advance smart pig technology
and the analysis and interpretation of pig test results.

On September 5, 2006, a PHMSA official confirmed that inspection teams were
already using the revised inspection protocol and in the next year the Agency
would continue reviewing operators’ assessments of pig data, evaluating the
adequacy of industry standards on pig processes, and identifying and funding areas
in need of further research and development. PHMSA’s actions are responsive to
our recommendations.


FINDINGS

Accuracy of Operator Annual Reports Needs Improvement
While acknowledging the progress being made in identifying, repairing, and
overseeing integrity threats, we have concerns with the accuracy of operator
annual reports submitted to OPS. OPS uses the integrity threat data in these
reports in a variety of ways, including identifying trends, prioritizing integrity
management inspections, and monitoring industry performance and regulatory
compliance. Yet, our review found reporting errors in the integrity threat data
submitted by six of the seven operators we visited. We asked each of the seven
operators to re-examine the 2004 threat data that they reported to OPS. Six of the
seven operators acknowledged having made errors, in some cases significant ones,
in their annual reports. For example, as indicated by Table 1, the number of

         Table 1. Change in Significant Threats Reported to OPS
                          by Seven Operators
            Operator           Reported             Revised               Net #               Net %
                               Threats              Numbers              Change               Change
                1                  53                   79                +26                  +49%
                2                 945                1,185               +240                  +25%
                3                 559                  622                +63                  +11%
                4                 317                  342                +25                   +8%
                5                  26                   26                   0                   0%
                6                  26                   17                  -9                 -35%
                7                 186                  110                 -76                 -41%
               Total            2,112                2,381               +269                 +13%

significant threats5 reported by one operator to OPS had to be increased by

5
    Those threats that must be repaired within set timeframes of immediate, 60 days, or 180 days.
                                                                                 6


49 percent (i.e., from 53 to 79). In a second example, the operator had to decrease
its numbers by 41 percent (i.e., from 186 to 110).

These reporting errors were due to a variety of factors. For example, one operator
mistakenly reported preliminary pig data instead of actual numbers obtained from
subsequent excavation and repair work. A second operator reported integrity
threat data involving non-HCA pipeline segments. Other types of errors included
reporting data outside the 2004 reporting period and entering numbers relating to
pipeline mileage rather than integrity threats. OPS attributed reporting errors to
this being the first annual report submitted by hazardous liquid pipeline operators
and the lack of familiarity with the new reporting requirements. Nevertheless,
OPS’s risk-based approach to safety needs accurate reporting from operators. Our
primary concern is that inaccurate reports hamper OPS’s ability to analyze threat
data, identify important trends, and focus limited inspection resources on areas of
greatest concern.

OPS officials are helping operators improve the accuracy of annual reports and to
better understand new reporting requirements. Starting in January 2006, OPS
began posting operator annual integrity threat reports to its public website as a
means of providing transparency and encouraging greater accuracy. In addition,
as a result of our preliminary audit findings, OPS has taken three steps to improve
the accuracy of operator annual reports. First, in April 2006, OPS issued new
reporting guidelines that clarified what threat data should be included in annual
reports and requested that operators verify the accuracy of their 2004 threat data.
Second, in May 2006, OPS updated its integrity management inspection manual
with a requirement for inspection teams to verify integrity threat data included in
operator annual reports. Third, in July 2006, OPS updated its inspection protocol,
directing inspectors to validate operator processes for reporting integrity threat
data. While these actions are positive, OPS needs to ensure that Federal and state
inspectors fully implement its new data verification requirements during future
inspections.


Continued Vigilance Is Needed To Ensure Smart Pig Results Are
Properly Analyzed and Interpreted
Given hazardous liquid pipeline operators’ reliance on smart pigs to identify
pipeline threats, OPS and the pipeline industry need to ensure the effective use of
this technology. Smart pigs have proven extremely valuable in helping identify
defects before leaks occur, but the current technology still cannot identify all
pipeline integrity threats. As a result, some integrity threats go undetected, and
pipeline accidents have occurred on pipelines that have been pigged.
                                                                                                                   7


Smart Pigs and How They Are Used
The IMP rule requires operators to assess the integrity of their pipelines using
smart pigs or an equally effective method, such as hydrostatic testing or direct
assessment. As of March 2006, approximately 95 percent of all hazardous liquid
pipeline operators were using smart pigs to identify integrity threats. These
devices run inside pipelines to record the location of dents, gouges, cracks,
corrosion, and other threats to pipeline safety. With much of the Nation’s pipeline
system underground, smart pigs can identify defects before leaks occur without the
costs and problems associated with excavation. Although operators contract with
pig vendors to inspect their pipelines, it is the operator—in verifying and
analyzing the vendor data and reports—who decides whether a dent or corrosion is
an integrity threat.

The Technology’s Limitations
Smart pigs provide valuable insights into a pipeline’s integrity, but they do not
guarantee that an operator will be able to identify all integrity threats. As the
following examples help to illustrate, the correct pig must be used and the data
from the pig run must be properly analyzed.

      ¾ In the 1999 Bellingham incident,6 the National Transportation Safety Board
        determined that one of the probable causes was that the pipeline operator
        had inaccurately evaluated pig assessment data. As a result, the operator
        did no further examination or excavation before the pipeline ruptured.

      ¾ In a 2003 failure, the pig reported corrosion pits of up to 50 percent, not the
        95 percent that was later identified during a post-accident metallurgical
        analysis of the pipeline.

      ¾ In another 2003 example, an operator failed to identify approximately
        160 integrity threats due to an error in analyzing pig data. In this case, the
        operator discovered the threats during a quality control review, rather than
        after an accident, and made the necessary repairs.

Our audit also found several examples indicating the limitation of smart pigs in
identifying integrity threats. In one case, pig data had indicated two immediate
threats, whereas the operator—after digging up and examining the pipeline—
identified 30 threats requiring immediate attention. In another, 33 of the
409 integrity threats in our sample turned out not to be threats, even though pig
data had indicated repairs were needed. Nearly half of the 33 misidentified
integrity threats had been classified as requiring repairs within 180 days.

6
    In June 10, 1999, a 16-inch-diameter hazardous liquid pipeline ruptured near Bellingham, WA, killing three people
    and injuring eight others, with property damage estimated at $45 million.
                                                                                                                   8


Recognizing the value, as well as the limits, of smart pig technology, all seven
operators we visited took measures to test the accuracy of pig results. For
example, all seven conducted verification digs in which an operator excavates and
assesses potential integrity threats identified in a pig vendor report. Additionally,
one operator employed an in-house pig analyst and, on one occasion, returned a
vendor’s final report for recalibration. Two other operators used contract clauses
penalizing the pig vendor if an integrity threat’s estimated location was not the
same as its actual location.

OPS and the pipeline industry have also taken a number of actions to ensure the
effective use of smart pig technology and data. Since 1995, OPS has funded
research and development activities to enhance this technology. Starting in 2002,
OPS integrity management inspections have included steps to determine how well
operators review, validate, and analyze pig results.7 In August 2005, the American
Petroleum Institute published its Standard 1163, “In-line Inspection Systems
Qualification Standard,” in recognition of the need for guidance about smart pigs
and their uses. This standard provides guidance to operators and pig vendors on
topics such as selecting the right pig, operating it properly, and verifying the
results. Also in August, OPS conducted a public meeting to educate operators and
pig vendors on the new standard and appropriate ways to apply, interpret, and
evaluate pig data.8

While OPS, pipeline industry, and operator actions hold promise, additional
vigilance is needed. For example, pipeline operators and pig vendors need to
continue using industry requirements, standards, and best practices. Likewise,
OPS needs to continue its research and development activities with respect to
smart pig technology and efforts to educate the industry on the proper use of smart
pigs and pig data to identify integrity threats. We also recommend that OPS
continue its oversight of operators’ use of smart pigs and the interpretation and use
of pig data.




7
    For example, OPS inspectors assess whether operators use data gathered during excavations and repair work to
    validate the accuracy of pig data.
8
    This is not the first public meeting that OPS has held on pipeline assessment methods. Since 2003, OPS has hosted
    five other public meetings on the use of smart pigs and other pipeline assessment methods.
                                                                                  9




RECOMMENDATIONS
We recommend that the PHMSA Administrator:

1. Ensure that integrity management inspection teams have implemented the new
   guidance on verifying integrity threat data in operator annual reports.

2. Identify what actions will be taken over the next year to (a) oversee operators’
   pig testing and analysis activities and (b) facilitate the adoption of industry
   standards and funding of research and development.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On June 29, 2006, we sent PHMSA a draft of our report. On August 11, 2006,
PHMSA provided us with its formal response, which is contained in its entirety in
the Appendix.

Regarding Recommendation 1, PHMSA agreed with our recommendation and
believes it has already met the intent of the recommendation. In July 2006,
PHMSA decided to revise its hazardous liquid integrity management inspection
protocol to require inspection teams to verify whether operators are following the
new reporting guidelines issued in April 2006. The Agency added that inspection
teams would begin using the updated inspection protocol in the summer of 2006.

Regarding Recommendation 2, PHMSA agreed with our recommendation and
described how it has worked for years to advance smart pig technology and the
development of industry standards. In addition, PHMSA pointed out how it has
helped to improve smart pig technology through research and development
investments. However, the response did not indicate what actions the Agency
would take in the coming year to further advance smart pig technology and the
analysis and interpretation of pig test results.

On September 5, 2006, a PHMSA official provided additional information on the
Agency’s response to the draft report. First, he confirmed that inspectors are using
the revised inspection protocol. However, PHMSA identified data errors in the
operators’ June 2006 annual reports. Therefore, the Agency will need to continue
working closely with pipeline operators to improve the accuracy of annual reports.

Second, the official stated that over the next year the Agency will continue
reviewing operators’ assessments of pig data, evaluating the adequacy of industry
standards regarding smart pigs, and identifying smart pig technology that needs
                                                                             10


further research and development. In addition, PHMSA will further enhance
pipeline integrity by awarding research and development contracts on pipeline
coatings, welding, and mechanical damage.

PHMSA’s actions are responsive to our recommendations, and we consider
recommendations 1 and 2 closed, subject to follow-up provisions of Department of
Transportation Order 8000.1C.

We appreciate the courtesies and cooperation of OPS representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin K. Hunt, Deputy Assistant Inspector General for
Aviation and Special Program Audits, at (415) 744-3090.

                                       #

cc: Assistant Administrator/Chief Safety Officer
    Laura Birkhimer, PHA-30
    Martin Gertel, M-1
                                                                                                                  11




EXHIBIT A. SCOPE AND METHODOLOGY
This review was conducted between August 2005 and May 2006 and included
visits to OPS Headquarters and regional offices, seven hazardous liquid pipeline
operators, two pipeline associations, and one public interest group (see Exhibit B
for a complete list). Nationwide, approximately 130 pipeline operators manage
249 pipeline systems. To conduct our audit, we selected seven operators based on
the number of integrity threats they had reported, their location, and when they
had undergone an integrity management inspection. We reviewed 13 of the
29 hazardous liquid pipeline systems managed by those 7 operators.

In 2004, hazardous liquid
                                     Table 2. Hazardous Liquid Pipeline Systems
pipeline operators nationwide           and Significant Integrity Threats (2004)
reported having repaired
18,225     integrity     threats,      Categories    Pipeline    Reported Integrity
5,564 of which were time-                            Systems          Threats
sensitive (i.e., immediate, 60-     Total Universe     249               5,564
                            9
day, and 180-day) threats, on       Audit Sample         13              2,112
their pipeline systems. As            % of Total       5%                 38%
depicted in Table 2, the
13 pipeline       systems     we
reviewed reported about 38 percent (2,112 of 5,564) of the nationwide total of
significant integrity threats in 2004.

To determine whether operators had repaired integrity threats and made repairs
within established time limits, we reviewed operator repair records and pig vendor
reports on a statistical sample of 409 integrity threats drawn from the 13 pipeline
systems between 2002 and 2004. We discussed integrity threat repairs with OPS,
the operators, and the pipeline associations.

To assess the accuracy of the reported integrity threat data from the seven
operators, we reviewed OPS’s 2004 Hazardous Liquid Annual Report database.
We also worked with pipeline operators in re-examining integrity threat data
included in their June 2005 annual reports to OPS.

To determine the adequacy of OPS oversight activities, we reviewed OPS’s
integrity management inspection protocols, inspection reports, and enforcement
actions for each of the seven operators we visited. We discussed inspection
procedures and results with OPS and pipeline operators.


9
    Operators reported having identified approximately 12,700 other (not time-sensitive) integrity threats in 2004. We
    focused on the 5,564 time-sensitive integrity threats because they pose a greater risk to pipeline safety.


Exhibit A. Scope and Methodology
                                                                              12


This performance audit was done in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. Our audit included such tests of procedures and records as we
considered necessary, including those providing reasonable assurance of detecting
abuse and illegal acts. We relied on aggregate integrity threat data provided by
OPS and pipeline operators; however, we verified the accuracy of operator data on
the individual integrity threats in our sample.




Exhibit A. Scope and Methodology
                                                           13




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Office of Pipeline Safety
   Headquarters, Washington, DC
   Central Regional Office, Kansas City, MO
   Eastern Regional Office, Washington, DC
   Southwest Regional Office, Houston, TX
   Trenton District Office, West Trenton, NJ
   Western Regional Office, Lakewood, CO

Pipeline Operators and Respective Systems
   Buckeye Pipeline Co., Emmaus, PA
     • Buckeye Pipeline Company, Limited Partnership
     • Everglades Pipeline Company, Limited Partnership
     • Laurel Pipeline Company, Limited Partnership
     • Norco Pipeline Company, Limited Partnership
   Kinder-Morgan Pipeline Co., Wink, TX, and Orange, CA
      • Santa Fe Pacific Pipeline, Limited Partnership
      • Calnev Pipeline Company
      • Kinder Morgan Wink Pipeline, Limited Partnership
   Magellan Pipeline Co., Tulsa, OK
     • Osage Pipeline Company
   Suncor Energy Pipeline Co., Cheyenne, WY
      • Suncor Energy (USA) Pipeline Company
   TEPPCO, Houston, TX
     • TE Products Pipeline Company, Limited Partnership
     • TEPPCO Crude Pipeline, Limited Partnership
   Valero Logistics, Corpus Christi, TX
      • Valero Logistics Operations, Limited Partnership
   Wolverine Pipeline Co., Portage, MI
     • Wolverine Pipeline Company




Exhibit B. Activities Visited or Contacted
                                                 14



Other
  Association of Oil Pipelines, Washington, DC
  American Pipeline Institute, Washington, DC
  Pipeline Safety Trust, Bellingham, WA




Exhibit B. Activities Visited or Contacted
                                                                                               15


 APPENDIX. MANAGEMENT COMMENTS




                                                                            400 Seventh Street, S.W.
U.S. Department                                                             Washington, D.C. 2059
of Transportation
Pipeline and Hazardous
Materials Safety Administration


 INFORMATION MEMORANDUM TO THE ASSISTANT INSPECTOR
 GENERAL FOR AVIATION AND SPECIAL PROGRAM AUDITS




 Subject:    Draft OIG Report on Integrity Threats to Hazardous Liquid Pipelines
 ________________________________________________________________________

 OIG Finding: Accuracy of Operator Annual Reports Needs Improvement

 PHMSA agrees that the quality of operator Annual Report submissions (Form PHMSA F
 7000-1.1) is important as it reflects progress being made toward the overall goal of
 pipeline integrity. However, your recommendation is made after reviewing only the first
 submission ever of hazardous liquid annual reports (CY 2004). As might be expected in
 the first year for any new reporting requirement, there were some inconsistencies and
 inaccuracies in the data that was provided. As your team noted, we recognized these
 issues, modified the report preparation instructions, and notified operators prior to
 submission of CY 2005 reports. The instructions now clarify more precisely what data
 should be submitted for several areas where the instructions were ambiguous or operators
 had difficulty providing the expected information. These include the problem areas
 identified in the draft report:

      •    Use of preliminary pig data instead of actual excavation data
      •    Reporting repairs in pipelines that can not affect High Consequence Areas
      •    Reporting data outside of the CY 2004 reporting period

 Revised Annual Report instructions were issued in April 2006 and are posted on the
 PHMSA web site where operators obtain the form for preparing their annual submission
 (http://ops.dot.gov/library/forms/forms.htm).




 Appendix. Management Comments
                                                                                          16


We have also worked with operators to submit amended 2004 reports to correct errors
discovered in our review of operator submissions. Numerous updates to 2004 Annual
Reports have been submitted and the revised results posted on our web site at:
http://opsweb.rspa.dot.gov/liquidimp/analysis/

In addition to providing operators with better guidance on Annual Report preparation, our
inspectors are now reviewing operator Annual Report submissions as part of Integrity
Management inspections and confirming that the operator followed instructions in
submitting their repair-related data. PHMSA has modified its “Integrity Management
Inspection Manual (aka “IM101 Manual”) to include guidance for inspectors to review
Annual Report data as part of their inspections, and to be sure operators understand the
instructions for preparing their report. While limited inspector resources preclude
conducting a comprehensive verification of all operator-submitted data, checking selected
data elements for conformance with the revised reporting guidance is now being
accomplished. For example, inspectors are now checking repair records for all
immediate repair conditions and selected other actionable anomalies. When
discrepancies or problems are found, operators are now being directed to amend their
Annual Report submissions to correct these deficiencies.

Since the beginning of the Integrity Management inspections in late 2002, PHMSA
inspectors have taken a systematic, disciplined approach to assuring that operator repairs
of potentially injurious pipeline anomalies are being made as required by the Integrity
Management rule (49 CFR 195.452). During the course of the OIG’s audit, we provided
a comprehensive description of our oversight approach. This document describes the
approach used to inspect an operator’s program and its results for identifying potential
pipeline integrity threats, selecting assessment tools to identify these threats, conducting
assessments starting with the high risk pipeline segments, analyzing the assessment
results, identifying potentially actionable anomalies, scheduling pipeline remediation
work, and performing necessary repairs using the appropriate repair methods. Through
this comprehensive approach, we provide assurance that operators are identifying and
repairing significant pipeline integrity threats in a timely manner.

OIG Recommendation: Ensure that integrity management inspection teams have
implemented the new guidance on verifying integrity threat data in operator annual
reports.

PHMSA believes that we have met the intent of this recommendation already. As
mentioned above, our inspection teams currently confirm that operators followed the
newly issued reporting guidance and are checking selected field dig and repair records to
confirm operators are following that guidance. In July 2006, at its periodic Lessons
Learned Meeting/Teleconference (aka “Reset Meeting”) for our inspection teams,
PHMSA decided to modify the inspection protocol form to provide explicit direction to
validate the operator’s approach for reporting repair-related data in its Annual Report,
and to record on the form any problems or concerns identified with the Annual Report
repair information. This modification provides additional assurance that inspectors are
following the guidance already provided them in our inspector manual, and provides a



Appendix. Management Comments
                                                                                          17


written record of problems with the accuracy of an operator’s reported pipeline repair
information. The modified protocols are being used by teams starting later this summer.

OIG Finding: Continued Vigilance Is Needed to Ensure Smart Pig Results Are Properly
Analyzed and Interpreted

PHMSA agrees that there is a need to improve smart pig anomaly characterization and
detection capability as well as the methods used to analyze smart pig data and integrate it
with other relevant information to diagnose potential pipeline problems. We have
aggressively advanced this challenge on several fronts. Our goal is pipeline integrity –
not just pipeline testing. As your report notes, smart pigs are not a “silver bullet”.
Making all of the right repairs is central to pipeline integrity. The systematic approach to
pipeline integrity already required by our regulations is essential. Smart pigs – even if
properly run and interpreted, only detect and characterize the defects they look for and no
pig can look for all defects. For this reason our existing rule requires application of
multiple tools based on a thorough risk assessment. A more detailed discussion of these
points follows.

First, the requirement for pipeline operators to periodically and repeatedly test their
pipelines using smart pigs (and other equally effective technologies) exists in our current
integrity management regulations. These requirements are clear and are described in
great detail on our expansive and public Integrity Management website (including
inspection protocols, frequently asked questions, replies to technical notifications, etc.),
are rigorously inspected by our field personnel (see below), have been explained in detail
in many public workshops, and operator-specific results from testing are made readily
available to the public through our website. The rules require the application of multiple
tools, and are framed in ways that allow for innovation and technology growth.

Second, we developed and deployed a rigorous oversight program that focuses heavily on
risk identification, selection of appropriate assessment methods for the identified threats,
and the operator’s evaluation of assessment results to identify anomalies that require
remediation. Specific inspection protocol questions and guidance deal with operator
analysis of assessment results. These address subjects such as the qualification of
individuals evaluating in-line inspection results, tool tolerances and other uncertainties in
the analysis, verifying the accuracy of smart pig results, and integrating data from other
sources with smart pig results to obtain a more complete understanding of pipe condition.
PHMSA has provided its inspectors, and state pipeline inspectors, with training in these
areas to enable them to review this highly technical discipline.

PHMSA has also worked on several fronts to promote improved information sharing and
industry awareness of the latest technical issues related to in-line inspection capability.
We have hosted public workshops on:
   • in-line inspection tool capability and the analysis of pigging results;
   • direct assessment methods, and
   • specific threats such as stress corrosion cracking and mechanical damage.




Appendix. Management Comments
                                                                                            18


PHMSA is supportive of three new industry standards that deal with issues critical to in-
line inspection testing and results analysis:

   •   In-Line Inspection of Pipelines (NACE Standard RP 01012)
   •   In-Line Inspection Personnel Qualification and Certification (ANSI/ANST ILI-
       PQ)
   •   In-Line Inspection Systems Qualification Standard (API-1163)

PHMSA has also supported standards activities for other assessment technologies that
must be relied upon when smart pigs can not be employed. These standards include:

   •   Pipeline External Corrosion Direct Assessment Methodology (ANSI/NACE
       Standard RP 0502)
   •   Pipeline Internal Corrosion Direct Assessment (ANSI/NACE – RP0104)
   •   Pipeline Stress Corrosion Cracking Direct Assessment (ANSI/NACE – RP0204)

Finally, PHMSA has supported a robust R&D program focusing on improving in-line
inspection technology. In the last few years we have co-funded approximately $5 Million
in seven projects to improve smart pig detection capability and $3 Million in five projects
to improve anomaly characterization. In addition to improving the detection and
characterization of a broader spectrum of pipeline defects, our research has supported
technologies that allow smart pigging of pipelines whose designs currently prevent the
use of such tools, thereby increasing the percentage of the nation’s lines that can be
pigged. PHMSA’s research has also supported the development and improvement of
other assessment technologies for situations where in-line inspection is still not possible.

We have hosted three R&D Forums – public meetings where government agencies,
public representatives, research funding organizations, standards organizations, and
pipeline operators discuss R&D issues and work toward a consensus on the technical
gaps and challenges for future R&D. PHMSA uses this input in selecting future R&D
projects to support.

OIG Recommendation: Identify what actions will be taken over the next year to (a)
oversee operators’ pig testing and analysis activities and (b) facilitate the adoption of
industry standards and funding of research and development.

As described above, PHMSA believes that it has aggressively advanced the appropriate
use of technology, including smart pigs, for many years. We supported the development
of standards such as those your report mentions, and others noted above which, to ensure
that the technology available is used systematically by qualified personnel.

In equally important ways, we have advanced the technology itself through effective
research investments made in concert with the other Federal and state agencies, the
pipeline industry, tool vendors, and all pipeline safety research institutions.




Appendix. Management Comments
                                                                                         19


Please do not hesitate to contact me if I can be of any further assistance in this matter.
Specific questions on the report content can also be directed to Mr. Jeff Wiese, on
PHMSA’s Pipeline Safety Staff. He can be reached by e-mail (jeff.wiese@dot.gov), or
by phone (202) 368-5522.


JWiese:Jw:64046:08/09/06
cc: PHP:PH:OfficialFile




Appendix. Management Comments
